Memorandum from the Office of the Inspector General



October 25, 2006

Karl W. Singer, LP 6A-C

FINAL REPORT – INSPECTION 2006-530I – BROWNS FERRY NUCLEAR PLANT
MATERIALS INVENTORY ACCOUNTING PRACTICES



Attached is the subject final report for your review and action. Your staff’s informal
comments to the draft report have been incorporated. Please advise us of your planned
actions in response to our findings within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Rick C. Underwood, Senior Auditor, Inspections, at
(423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff during
this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GCJ:BKA
Attachment
cc (Attachment):
     Ashok S. Bhatnagar, LP 6A-C
     Peyton T. Hairston, Jr., WT 7C-K
     Deborah A. Kearnaghan, MR 6D-C
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Brian J. O’Grady, PAB 1E-BFN
     Preston D. Swafford, LP 6A-C
     Randall P. Trusley, WT 4B-K
     Geda L. Watson, BR 3H-C
     OIG File No. 2006-530I
                     Tennessee Valley Authority
                     Office of the Inspector General


Inspection Report


BROWNS FERRY
NUCLEAR PLANT
MATERIALS
INVENTORY
ACCOUNTING
PRACTICES

Inspection Team                            2006-530I
Rick C. Underwood                    October 25, 2006
Jennifer L. Hamby
Heather R. Kulisek
Kristin S. Leach
Office of the Inspector General                                                       Inspection Report


SYNOPSIS
At the request of the Tennessee Valley Authority’s (TVA) Chief Nuclear Officer
(CNO) and Executive Vice President, we conducted a review of inventory
accounting practices at Browns Ferry Nuclear Plant (BFN). Specifically, we
were requested to determine (1) whether proper accounting practices and TVA
policies were followed when returning material and components (i.e., spare
parts) to inventory after being removed from installed locations, and
(2) whether existing procedures provide adequate guidance on returning spare
parts to inventory.

In summary, we found:

•      Noncompliance with Generally Accepted Accounting Principles (GAAP)
       and TVA policies and procedures.
•      TVA policies and procedures do not adequately address (a) how to
       account for the return of material/components to inventory from installed
       locations (i.e., spare parts) and (b) the inventory tracking of spare parts.
•      Facts noted during our review may have created an appearance of
       manipulation of entries to achieve an outage incentive payout.



BACKGROUND
The CNO specifically requested that we “examine whether proper accounting
practices are being followed when returning material and components removed
from installed locations to inventory.” In addition, he asked that we “evaluate the
accuracy of cost reporting and whether it is sufficient to determine the
magnitude of material credits on operation and maintenance (O&M)
expenditures.” In January 2006, BFN personnel identified spare parts which
were housed at various locations throughout the plant. The spare parts were
accounted for by recording them in PassPort as inventory at an estimated value
of about $3.011 million and by crediting base O&M expense. In March 2006,
BFN personnel identified additional spare parts and accounted for these items
by placing them in inventory at an estimated value of about $5.219 million and
crediting the Unit 3 Cycle 12 outage (U3C12) expense. While the spare parts
recorded in PassPort resided at different plant locations and were not under the
control of BFN warehouse personnel, the transactions were treated as a return
to stock.1 In addition, not all identified spare parts were recorded in PassPort as
inventory.


1
    Some of the spare parts recorded as inventory cannot be controlled by the warehouse due to radiation
    exposure.
Inspection 2006-530I                                                                            Page 1
Office of the Inspector General                                     Inspection Report

Personnel from the TVA Controller’s organization performed a review of these
transactions and concluded that credit should be allowed for only $1.784 million
of the $8.23 million in spare parts. Prior to the March 2006 financial closing, the
Controller reversed $1.592 million of the credit applied to base O&M expense
and $4.854 million of the credit applied against the U3C12 outage expense.
The $4.854 million accounting reversal resulted in the outage incentive goal
related to cost not being achieved. The corresponding incentive payout would
have totaled about $39,000.

According to plant personnel, the returns were initiated because BFN
management personnel with nuclear industry experience from outside TVA
were used to “shop spares” being tracked as far as location, quantity on hand,
state of repair, etc., and felt this was something that should be done at BFN.
In order to track the availability of spare parts, BFN maintenance personnel
were sent to identify items that were located throughout the plant that were still
of use and not tracked in PassPort.


OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to determine (1) whether proper accounting practices and
TVA policies were followed when returning material and components removed
from installed locations to inventory (i.e., spare parts), and (2) whether existing
procedures provide adequate guidance on returning spare parts to inventory.
To achieve our objectives, we:

•   Reviewed TVA Nuclear (TVAN) and Chief Financial Officer (CFO) policies
    and procedures related to TVA inventory return practices (i.e., TVAN
    SPP-4.4, Material Issue, Control, and Return, and CFO-SPP-13.8,
    Accounting for Materials and Supplies Inventories).
•   Interviewed TVAN, CFO, and Procurement personnel.
•   Reviewed the Federal Energy Regulatory Commission’s (FERC) Uniform
    System of Accounts and interviewed FERC and PriceWaterhouseCoopers
    personnel regarding accounting for the return of spare parts to inventory.
•   Reviewed schedules, memorandums, and other supporting documentation
    related to the initial inventory return transactions and subsequent
    adjustments/reversals.

This inspection was conducted in accordance with the “Quality Standards for
Inspections.”




Inspection 2006-530I                                                          Page 2
Office of the Inspector General                                 Inspection Report


FINDINGS
We found proper accounting practices and TVA policies were not followed
when the January and March 2006 spare parts returns were made. Therefore,
the Controller’s $6.446 million accounting reversal appears appropriate.
Furthermore, the TVAN and CFO policies and procedures were not designed
to address the accounting and inventory control of spare parts. We also noted
that the facts noted during our review may have created an appearance of
manipulation of entries to achieve an outage incentive payout.

NONCOMPLIANCE WITH GAAP AND TVA POLICIES AND
PROCEDURES
The accounting treatment and valuation of the spare part returns resulted in
accounting inaccuracies and subsequent transaction reversals. We also found
noncompliance with certain provisions of CFO-SPP-13.8 when the spare parts
were recorded in PassPort as inventory. While we conclude that the return of
the spare parts was not accounted for correctly, we believe spare parts, where
all necessary information exists, should be tracked and accounted for.
Identification and tracking of spare parts will facilitate timely use and the
avoidance of unnecessary purchases.

NonCompliance with GAAP
Based on our review of documentation and discussions with BFN,
Procurement, and CFO personnel, it appears that the Controller’s
$6.446 million accounting reversal was appropriate. We were told that the
majority of the items placed in inventory could not be tracked to PassPort
issuance and were most likely originally issued and expensed in previous
financial statement periods or perhaps as part of the original BFN plant
construction. For these items, normal accounting practices would require any
residual value associated with such items be reflected through prior period
adjustments and not credits to current expense accounts. In our opinion, while
the items placed in inventory have an inherent value to TVA, documentation
reviewed and descriptions of the items provided by BFN, Procurement, and
Controller personnel support that the spare parts had limited or no book value.
Therefore, the initial booking of the spare parts in PassPort resulted in an
understatement of accumulated depreciation and an overstatement of
inventory. Discussions with PriceWaterhouseCoopers, FERC, and the TVA
Controller supported our conclusion.




Inspection 2006-530I                                                      Page 3
Office of the Inspector General                                     Inspection Report

NonCompliance with TVAN SPP-4.4, Material Issue, Control, and Return
We noted the following requirements for returning material under TVAN
SPP-4.4 that were not complied with when placing items in inventory in
January and March 2006:

•   Section 3.3.3.A requires that plant personnel perform the necessary
    activities to establish that the item being returned meets the original
    requirements. However, we were told that several of the items placed in
    inventory still require refurbishment prior to availability for reissue. The
    reason given for this was the shelf-life of several items once they are
    repaired or refurbished is limited, and the work will have to be redone.

•   Section 3.3.3.D requires that plant personnel provide the following
    additional information for returned items that have been removed from
    plant-related systems and not identified to a TVA contract number.

    1. Physical location from which the item was removed
    2. The system number
    3. Component identifier
    4. Unique manufacturer serial number or other identification

The required information could not be obtained for many of the items returned
to inventory.

Section 3.3.4 requires the Nuclear Materials manager or designee verify that
material is identifiable and QA Level I, II, and III items are traceable to the
original procurement document or previously installed plant location for items
removed from service. This information was not available for many of the
items returned to inventory.

NonCompliance with CFO-SPP-13.8, Accounting for Materials and
Supplies
Section 5.2.2, Inventory Valuation, of CFO-SPP-13.8, states that material
purchased for capital projects must be returned to inventory stock prior to
closing the project and that items purchased as O&M expense should be
returned within 30 days of work order closure or prior to the end of the fiscal
year, if possible. If these requirements had been followed, the items that did
conform to TVAN SPP-4.4 Section 3.3.3.A and did meet original requirements
would have already been in inventory prior to January and March 2006. Both
Procurement and BFN personnel indicated that the origin of the items placed
in inventory cannot be determined, but most likely the items originated from
several different places: BFN Unit 1; BFN Unit 2; BFN Unit 3; Hartsville; or
Bellefonte Nuclear Plant. Both Procurement and BFN personnel noted that
some of the items placed in inventory in January and March 2006 had never
been recorded as inventory items and therefore had no Catalog Identifier
Inspection 2006-530I                                                          Page 4
Office of the Inspector General                                  Inspection Report

(CAT ID) or established Average Unit Price (AUP). AUPs were estimated
based on similar equipment/materials. For the items that were initially
recorded in inventory, CFO-SPP-13.8 compliance would have resulted in
timely returns to inventory and corresponding accounting adjustments in the
proper financial statement period.

TVA POLICIES AND PROCEDURES INADEQUATE
As stated previously, we found that the returns were initiated because BFN
management personnel with nuclear industry experience from outside TVA
were used to “shop spares” being tracked as far as location, quantity on hand,
state of repair, etc., and felt this was something that should be done at BFN.
We agree and believe spare parts, where all necessary information exists,
should be accounted for and tracked. Identification and tracking of spare parts
will facilitate timely use and the avoidance of unnecessary purchases.

However, we found and management concurred that TVAN and CFO policies
and procedures, related to control, issuance, and return of inventory, were not
really designed to address spare parts.

TVAN SPP-4.4, Material Issue, Control, and Return
We found that the guidance provided by this document did not address many
of the issues that were problematic for the BFN and Procurement personnel
regarding the January and March 2006 spare part returns. The policy does not
address the addition of items that are not currently in the inventory system or
how they should be valued. In addition, it does not address any accounting
issues arising from placing items in inventory that may have been depreciated
or otherwise expensed in a prior financial statement period.

CFO-SPP-13.8, Accounting for Materials and Supplies
We found CFO-SPP-13.8 does not specifically address how parts removed
from previously installed locations and depreciated or expensed in a prior
financial statement period should be accounted for or valued. CFO-SPP-13.8
does state that, “The Controller organization is responsible for ensuring that
materials and supplies expenses are properly valued and matched to the
correct accounting period and that TVA’s assets are accurately reflected on
the balance sheet in accordance with GAAP and applicable laws and
regulations.” The TVA Controller is currently drafting policies and procedures
to address the accounting for spare parts. In addition, the Controller plans to
use a consultant to review current inventory valuation and expensing practices.
In our discussion with the Controller, we agreed that CFO-SPP-13.8 was not
designed to address the accounting and valuation of spare parts (i.e.,
previously installed items).




Inspection 2006-530I                                                       Page 5
Office of the Inspector General                                   Inspection Report


APPEARANCE OF POTENTIAL MANIPULATION
Prior to the Controller’s $4.854 million reversal which applied to the U3C12
outage expense, the expected incentive payout applicable to the U3C12
outage goals was about $555,000. Our analysis determined that about
$39,000 of the scheduled payout was related to outage budget performance.
By crediting items placed in inventory to the U3C12 outage expense, the
cost performance goal was achieved.

We found no documentation or other information which indicated the intent of
the credit was to achieve outage performance goals. The circumstances
surrounding these entries, however, could create the appearance of an
attempt to manipulate entries to achieve an incentive award. These
circumstances include the policy and accounting practice violations, the CFO
accounting reversal, and the fact that many of the key management personnel
who directed the gathering and placement of spare parts into inventory were
eligible recipients of the incentive payout.


RECOMMENDATIONS
We recommend that the Controller, CNO, and Senior Vice President,
Procurement, collaborate to:

•   Ensure that accounting practices and TVA policies and procedures are
    complied with when placing spare parts in inventory.

•   Modify policies and procedures to (a) address the proper accounting,
    valuation, and methods to return previously installed items to inventory
    and (b) provide for tracking spare parts.

We recommend that the CNO ensure that recording and reporting of financial
data related to outage incentive payouts is, whenever feasible, either entered
or reviewed and approved by someone not eligible for any payout related to
that data.




Inspection 2006-530I                                                        Page 6
